        U.S. Department of Energy
        Office of Inspector General
        Office of Audit Services




Audit Report
Waste Processing and Recovery Act
Acceleration Efforts for Contact-
Handled Transuranic Waste at the
Hanford Site




OAS-RA-10-10                          May 2010
                                  Department of Energy
                                    Washington, DC 20585

                                          May 25, 2010


MEMORANDUM FOR THE SECRETARY


FROM:                     Gregory H. Friedman
                          Inspector General

SUBJECT:                  INFORMATION: Audit Report on "Waste Processing and Recovery
                          Act Acceleration Efforts for Contact-Handled Transuranic Waste at the
                          Hanford Site"

BACKGROUND

The Department of Energy's Office of Environmental Management's (EM), Richland Operations
Office (Richland), is responsible for disposing of the Hanford Site's (Hanford) transuranic (TRU)
waste, including nearly 12,000 cubic meters of radioactive contact-handled TRU wastes. Prior to
disposing of this waste at the Department's Waste Isolation Pilot Plant (WIPP), Richland must
certify that it meets WIPP's waste acceptance criteria. To be certified, the waste must be
characterized, screened for prohibited items, treated (if necessary) and placed into a satisfactory
disposal container.

In a February 2008 amendment to an existing Record of Decision (Decision), the Department
announced its plan to ship up to 8,764 cubic meters of contact-handled TRU waste from Hanford
and other waste generator sites to the Advanced Mixed Waste Treatment Project (AMWTP) at
Idaho's National Laboratory (INL) for processing and certification prior to disposal at WIPP.
The Department decided to maximize the use of the AMWTP's automated waste processing
capabilities to compact and, thereby, reduce the volume of contact-handled TRU waste.
Compaction reduces the number of shipments and permits WIPP to more efficiently use its
limited TRU waste disposal capacity. The Decision noted that the use of AMWTP would avoid
the time and expense of establishing a processing capability at other sites.

In May 2009, EM allocated $229 million of American Recovery and Reinvestment Act of 2009
(Recovery Act) funds to support Hanford's Solid Waste Program, including Hanford's contact-
handled TRU waste. Besides providing jobs, these funds were intended to accelerate cleanup in
the short term. We initiated this audit to determine whether the Department was effectively
using Recovery Act funds to accelerate processing of Hanford's contact-handled TRU waste.

RESULTS OF AUDIT

Relying on the availability of Recovery Act funds, the Department changed course and approved
an alternative plan that could increase costs by about $25 million by processing Hanford TRU-
waste on-site rather than at AMWTP. Further, under the newly adopted alternative approach, the
Department would fail to achieve the previously anticipated reductions in volume associated with
the use of existing AMWTP waste compaction capabilities.
Our concern with the current plan revolves around the fundamental question of efficient and
effective use of Recovery Act funds and is discussed on page 4 of this report.

                                        Change of Plans

Both EM Headquarters and Richland management informed us that the Department had
approved a new plan that would significantly modify the disposal plan contained in the February
2008 Decision for the Department of Energy's Waste Management Program: Treatment and
Storage of Transuranic Waste. In particular, the plan would accelerate shipping contact-handled
TRU waste from Hanford to WIPP using Recovery Act funds. The TRU Waste Acceleration
Plan (Revision 1, March 2010), calls for Hanford to transfer only a nominal amount of waste
(about 208 cubic meters) to the AMWTP in Fiscal Year 2010, rather than the 6,500 cubic meters
identified in the Decision. The overwhelming majority of Hanford's contact-handled TRU waste
would, under the current plan, be processed and certified at Hanford then shipped directly to
WIPP.

The Department's immediate plans are to address 850 cubic meters of waste in above-ground
storage at Hanford. Hanford had taken action to execute the plan and started processing the 850
cubic meters of the contact-handled TRU waste in February 2009 using hand-sorting techniques.
Also, the Department has plans to process approximately 1,600 cubic meters of its waste drum
inventory yet to be retrieved; and, a considerable inventory of contact-handled TRU waste in
small and large boxes. Richland is using Recovery Act funds to increase Hanford's repackaging
capabilities and expand the contractor waste processing workforce to facilitate on-site processing
of the waste.

Management officials asserted that the 6,500 cubic meters of TRU waste from Hanford identified
in the Decision was used only as a bounding limit for the required National Environmental Policy
Act analysis and that the Department had not planned to ship this volume of waste to the
AMWTP. Although management correctly characterized the 6,500 cubic meters as a bounding
limit, the statement is inconsistent with other plans outlined in the Decision. Specifically, the
Decision noted that "DOE [Department of Energy] expects that most of the waste from these
generator sites will be sent to INL for treatment and characterization."

                                Cost-Effective Waste Processing

Processing the contact-handled TRU waste at Hanford as opposed to the AMWTP does not
appear to be the most cost-effective approach. As shown in the following table, the Department
will incur nearly $25 million in additional costs to process the TRU waste at Hanford than it
would at the AMWTP.




                                                2
    Additional Cost of Processing Contact-Handled Transuranic Waste at Hanford vs.
                                       AMWTP

                    Treatment/Processing      Transportation       Disposal            Total

 Hanford Cost            $42,182,172            $6,417,957       $8,069,216        $56,669,345

 AMWTP Cost              $20,041,505            $9,319,541       $2,444,042        $31,805,088

 Difference              $22,140,667           ($2,901,584)      $5,625,174        $24,864,257

The $24.8 million in additional cost in processing results primarily from the fact that Hanford
must hand-sort and repackage the waste before it can be characterized and loaded into containers
for disposal. This is a costly, labor and resource-intensive procedure. In contrast, AMWTP is a
highly automated process. We found, and Department officials confirmed, that an economic
analysis of the proposed change in processing strategy had not yet been prepared to demonstrate
the cost effectiveness of deviating from the original plan to process the waste at AMWTP.

In reviewing an earlier cost savings analysis that we prepared, management commented that our
analysis incorrectly included waste in boxes. Accordingly, we revised the estimate to include
only the volume of waste in drums at Hanford, or a total of 2,660 cubic meters. As a
consequence, we did not include the inventory of small and large boxes in our cost comparison.
Thus, there is a very real potential for significant additional cost savings in processing available
candidate waste in boxes, as well.

Management asserted that its recent investigations have disclosed that almost 100 percent of the
TRU waste drums in storage were suspected to contain items, such as various liquids, that are
prohibited for disposal at WIPP, making it impossible to ship the waste to INL. We could not
validate management's assertion. Hanford officials were unable to produce any studies
suggesting that a high percentage of the TRU waste containers held prohibited items, let alone
the nearly 100 percent as asserted by management. In subsequent discussions, Richland
management acknowledged that there is no data to indicate that the prohibited items rate was
nearly 100 percent; however, management stated that the prohibited items rate is not now a
relevant factor since Richland is no longer looking for candidate waste to go to Idaho.
The new project plan, according to Richland management, is to repackage all the waste,
regardless of the prohibited item rate. Richland officials told us that Hanford will treat all the
waste as containing prohibited items and will hand-sort and repackage the waste for shipment to
WIPP.

                                        Volume Reduction

Processing the waste at Hanford also will not allow WIPP to more efficiently use its disposal
capacity, as envisioned by the Decision. Specifically, Richland does not have the capability to
compact contact-handled TRU waste to reduce the volume of waste shipped to WIPP. According


                                                  3
to Richland officials, Hanford's compaction capabilities are limited to compacting mixed, low-
level waste and empty waste drums. The AMWTP, on the other hand, has waste compaction
capabilities that reduce the volume of TRU waste, a primary reason for the Department's decision
in the amended Decision to ship the waste to AMWTP from waste generator sites. Because of
uncertainties regarding contents of the waste drums, it is not possible to determine with certainty
the exact amount of volume reduction available from compaction.

                                      Workforce Concerns

Department officials told us that Richland initially had not implemented its plans to have the
AMWTP process Hanford's contact-handled waste, at least in part, because of concerns about
maintaining a stable Hanford workforce. For example, Richland planned to ship the 208 cubic
meters of contact-handled TRU waste to the AMWTP in November 2008. According to
Richland's manager, however, the shipment was postponed, in part, because of concerns about
transferring jobs to Idaho, along with the waste. Specifically, in a September 30, 2008, letter,
labor representatives voiced concerns with the Department's decision to transfer packaging and
compaction work associated with TRU waste disposition to the AMWTP – work the labor
representatives stated had been traditionally performed at the Hanford Site. Currently, however,
it appears that there are no concerns about a decreasing workforce since Hanford contractors are
hiring large numbers of employees to support several major Recovery Act projects.

                                         Possible Impact

As a result of Richland's decision to process the TRU contact-handled waste on-site, the
Department is at risk of spending approximately $25 million more than necessary. In our
judgment, these funds could be better used for other high-priority, stimulus-related cleanup
projects. We recognize the Department's responsibility to use Recovery Act funding to create
jobs and to stimulate the economy. However, in our view, this does not obviate the need to
achieve Departmental missions efficiently and effectively. The fact pattern here suggests that the
current plan to process Hanford's waste on-site as opposed to processing the waste at the
AMWTP is inconsistent with this objective. This conclusion is based on the finding that the
alternative approach has not been sufficiently analyzed to reliably confirm that this course of
action is better than the previous plan identified in the applicable Record of Decision.

RECOMMENDATIONS

Given the Department's responsibility to efficiently use Recovery Act funding, we recommend
that the Assistant Secretary, Office of Environmental Management:

   1. Determine the amount of Hanford contact-handled TRU waste that is suitable for
      processing at the AMWTP and ultimate disposal at WIPP; and,

   2. Fully analyze the cost implications of processing Hanford's contact-handled TRU waste
      on-site as opposed to processing it at the AMWTP.




                                                4
MANAGEMENT COMMENTS

Management concurred with the report's recommendations but disagreed with the estimated cost
increase for Richland to prepare the waste for disposal as opposed to using AMWTP for the
preparation.

Management's comments were responsive to our recommendations. Regarding management's
comments concerning our cost analysis, the analysis was based on the actual costs incurred at
Hanford in preparing waste for shipment, as well as the costs to process the waste at the
AMWTP. The details of this cost analysis were fully vetted with Department management, and
adjusted based on management input, prior to issuing the draft report.

A detailed discussion of management's comments and our response is included in Attachment 2
and management's verbatim comments are included in Attachment 3.

Attachments

cc:   Deputy Secretary
      Under Secretary of Energy
      Assistant Secretary, Office of Environmental Management
      Chief of Staff
      Chief Financial Officer
      Audit Liaison Specialist, Office of Risk Management, CF-80
      Manager, Richland Operations Office
      Audit Liaison, Richland Operations Office




                                              5
                                                                                   Attachment 1


                      OBJECTIVE, SCOPE, AND METHODOLOGY


OBJECTIVE

The audit objective was to determine whether the Department was effectively using Recovery
Act funds to accelerate processing of Hanford's contact-handled TRU waste.

SCOPE

We began the audit on October 8, 2008, to determine the Department's progress in implementing
plans to process Hanford's contact-handled TRU waste at the Advanced Mixed Waste Treatment
Project. On May 8, 2009, however, we re-focused the audit to assess the effectiveness of using
Recovery Act funds to accelerate processing of Hanford's waste, which became the primary
focus of the audit through the end of audit work in May 2010. The audit was conducted at the
Richland Operations Office (Richland), and the Idaho National Laboratory (INL). Scope was
limited to Solid Waste Processing activities at Hanford.

METHODOLOGY

To accomplish the audit objective, we:

       Researched Federal, Departmental and contractors regulations, policies and procedures;

       Interviewed key personnel in the Office of Environmental Management, Richland, INL,
       the Carlsbad Field Office, and the CH2M Hill Plateau Remediation Company;

       Obtained and reviewed plans for Solid Waste Processing activities;

       Obtained and reviewed contract requirements, and performance measures applicable to
       Solid Waste Processing activities;

       Conducted observations at T-Plant, the Waste Receiving and Processing Facility, and the
       Advanced Mixed Waste Treatment Facility; and,

       Obtained and reviewed Project Operating Plans for Solid Waste processing activities to
       be performed at Hanford, the Carlsbad Field Office, and INL using Recovery Act funds.

We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective. The audit included tests of
internal controls and compliance with laws and regulations to the extent necessary to satisfy the
audit objective. Because our review was limited, it would not necessarily have disclosed all


                                                6
                                                                        Attachment 1 (continued)


internal control deficiencies that may have existed at the time of our audit. Also, we considered
the establishment of performance measures in accordance with the Government Performance and
Results Act of 1993 as they related to the audit objective. Finally, we did not rely on computer-
processed data to accomplish our audit objective.

An exit conference was held with Department officials on May 6, 2010.




                                                7
                                                                                    Attachment 2


               MANAGEMENT COMMENTS AND AUDITOR RESPONSE

Management Comment

Management disagreed with the Office of Inspector General's (OIG) estimate of a potential
$25 million increase in cost for Richland Operations Office (Richland) to prepare the transuranic
(TRU) waste for disposal, as opposed to sending it to the Advanced Mixed Waste Treatment
Project (AMWTP) for processing. Management stated that the $25 million estimate did not
adequately consider the technical requirements and new technical challenges and constraints that
must be addressed for TRU shipments between sites, thus understating the total life-cycle costs
for waste processed through the AMWTP. Also, management stated that several significant
changes have occurred since the OIG evaluation began. For example, the Richland contractor
proposed revised technical approaches for TRU waste. Also, with enactment of the American
Recovery and Reinvestment Act of 2009 (Recovery Act), the Department of Energy
(Department) decided to invest Recovery Act funds in Hanford Site (Hanford) TRU activities in
order to save jobs and accelerate mission accomplishment, consistent with Recovery Act
objectives.

In particular, management asserted that the OIG cost estimate did not include most of the
required activities and associated costs that are needed even if the waste were to be shipped to
the AMWTP. Management stated, for example, that retrieved drums must undergo full
characterization that includes process knowledge, radiography, nondestructive assay, and, in
some cases, headspace gas sampling to meet Nuclear Regulatory Commission shipping
requirements. Additionally, management asserted that a drum found to contain prohibited items,
such as liquids, must undergo essentially all the same steps required to repack a drum whether
for shipment directly to the Waste Isolation Pilot Plant (WIPP) or to the AMWTP.

Management asserted that its revised approach for processing the waste at Hanford will result in
processing efficiencies not considered in the OIG cost savings analysis. In particular,
management pointed out that point-of-generation packaging at the trench face (waste retrieval
site) by placing it directly into standard waste boxes for shipment to WIPP will result in
significant life-cycle cost savings. Management also pointed out that the OIG analysis did not
consider that the use of higher volume standard waste boxes at the point-of-generation is more
cost effective than packing retrieved drums in overpack containers for shipment to WIPP.

Auditor Response

We acknowledge that significant technical requirements must be met prior to shipping Hanford's
waste, and our report took these into account. Our cost analysis considered the technical
requirements that must be met in shipping the waste to the AMWTP, as well as, the technical
challenges and constraints associated with shipments between sites. In particular, our cost
analysis was based on the actual costs incurred at Hanford in preparing waste for shipment, as
well as the costs to process the waste at the AMWTP. The details of this cost analysis were fully
vetted with Department management, and adjusted based on management input, prior to issuing
the draft report.



                                                8
                                                                         Attachment 2 (continued)


The OIG's cost estimate does not include the costs associated with sorting out prohibited items
and repacking the waste, because we accept management's assertion that waste containers with
prohibited items should be processed at Richland, and are not good candidates to ship to the
AMWTP. However, those waste containers without prohibited items are less expensive to
process at the AMWTP due to its highly automated processes for characterizing, treating, and
compacting the waste. Further, cost for removal of prohibited items were not included because
Richland did not incur these costs for the 208 cubic meters of waste that it has retrieved and
plans to ship to the AMWTP for full characterization, sorting, repacking, and shipping to WIPP.
We noted that Richland had made the determination that the 208 cubic meters of waste was
suitable for shipping and processing at the AMWTP without fully characterizing and sorting the
waste. Management's comments that such costs will be incurred regardless of whether the waste
is sent to the AMWTP is based on its assertion that a high percentage of retrieved drums contains
prohibited items and cannot be shipped to the AMWTP without incurring the costs of fully
characterizing the waste and sorting out the prohibited items. However, full characterization is
not necessary to scan for prohibited items, rather, a process referred to as quick-scan or
acceptable knowledge can be used to determine whether prohibited items are in the waste.
Additionally, management officials were unable to produce any studies that determined a high
percentage of TRU waste containers held prohibited items.

In subsequent discussions, Richland management acknowledged that the historical rate of
occurrence of prohibited items in waste containers has been much less than the high estimates
management assumed in planning its current waste treatment process. However, management
stated that the prohibited items rate is no longer a relevant factor since Richland is no longer
looking for candidate waste to go to Idaho National Laboratory.

As previously mentioned, our cost analysis was based on actual costs incurred in processing
TRU waste at Hanford as opposed to processing it at the AMWTP. It does not factor in recent
changes in Richland's approach to point-of-generation packaging the waste into standard waste
boxes. However, we were unable to evaluate management's assertion regarding cost savings
because it had not yet completed detailed cost studies.

Finally, as discussed in the body of our report, management had not completed an economic
analysis of changes in processing the waste at Hanford as opposed to processing it at the
AMWTP. We concluded that the life-cycle cost savings estimate should have been prepared for
both approaches prior to making a decision to scale back plans set forth in the Record of
Decision.

Management Comment

Management stated that the Department expects that its new approach to accelerating waste
retrieval and packaging with Recovery Act funds will reduce life-cycle costs by a preliminary
estimate of more than $135 million.




                                                 9
                                                                       Attachment 2 (continued)


Auditor Response

Management's preliminary estimate of reduced life-cycle costs of $135 million is currently under
development. While details of the estimate are not complete, it appears that the estimated life-
cycle savings result from elimination of out-year TRU waste program costs due to near term
acceleration of waste removal. Applying the Recovery Act funds to accelerate implementation
of the February 2008 Decision in the near term by maximizing TRU waste transfers to the
AMWTP would also result in similar life-cycle cost reductions.

Management Comment

Management concurred with our recommendation to determine the amount of Hanford contact-
handled TRU waste that is suitable for processing at the AMWTP.

Auditor Response

Management's comments are responsive to our recommendation.

Management Comment

Management concurred with our recommendation to fully analyze the cost implications of
processing Hanford's contact-handled TRU waste on-site, as opposed to processing it at the
AMWTP.

Auditor Response

Management's comments are responsive to our recommendation.




                                              10
MEMORANDUM FOR RICKEY R. HASS
               DEPUTY INSPECTOR GENERAL
                 FOR AUDIT SERVICES

FROM:                    INÉS TRIAY (NO SIGNATURE-508 VERSION)
                         ASSISTANT SECRETARY FOR
                           ENVIRONMENTAL MANAGEMENT

SUBJECT:                 Draft Inspector General Audit Report on “Waste Processing and
                         Recovery Act Acceleration Efforts for Contact-Handled
                         Transuranic Waste at the Hanford Site”

My office has reviewed the draft Office of the Inspector General (IG) report entitled,
“Waste Processing and Recovery Act Acceleration Efforts for Contact-Handled
Transuranic (CH-TRU) Waste at the Hanford Site.” The attachment provides the
Department’s comments on the report. These comments have been coordinated with staff
at the Hanford Site, Idaho Operations Office, and the Carlsbad Field Office.

The Department concurs with the IG recommendation that the Office of Environmental
Management (EM) should re-evaluate its plans, in light of changes that have occurred, to
determine the amount of Hanford CH-TRU waste that may be suitable for processing at
the Advanced Mixed Waste Treatment Plant (AMWTP). EM plans on completing the
evaluation by June 30, 2010.

The Department shares the IG’s commitment to ensuring the effective use of Recovery
Act funds to accomplish key mission objectives, but does not agree with the IG estimate
of potential $25 million in increased cost to dispose of Hanford TRU waste. The
Department is unable to validate the IG’s $25 million dollar impact as it appears required
activities have been omitted, as explained further in the attachment. EM concurs that we
should re-evaluate Hanford’s lifecycle baseline in light of changes that have occurred,
which will help ensure the life-cycle cost for the Hanford cleanup is optimized. This
evaluation will be completed by September 30, 2010.

EM will realize significant savings by using Recovery Act funds to support transuranic
waste activities. Recovery Act funds have allowed the continuation and acceleration of
cleanup and waste disposal activities throughout the Department’s complex. At Hanford
alone, the ability to accelerate previously unfunded work related to the transuranic waste
program will reduce life-cycle costs by a preliminary estimate of more than $135 million
(current year dollars), an outcome contrary to that described in the Monetary Impact
Report.
                                                                                        2

In order to optimize worker safety, contamination control and life-cycle cost, the
Department has discontinued the previous TRU waste retrieval strategy that placed
significantly degraded drums into 85-gallon overpack drums prior to transfer to above
ground storage and eventual processing. Field conditions for retrieval at Hanford are
worse than anticipated, resulting in significantly more degraded drums. Processing
efficiency will be improved by implementing point-of-generation packaging at the trench
face by placing the waste directly into standard waste boxes. The revised Hanford waste
processing approach and more efficient steps in retrieving and preparing waste for
shipment and disposal will result in significant life-cycle cost savings for EM.

The plan that the IG is referencing in the report is a strategic plan entitled “TRU Waste
Acceleration Plan” (originally entitled the 30/5 shipping plan) and approved on
October 9, 2009. The need for the plan was recognized by EM-1 and developed by
Washington TRU Solutions - the Carlsbad Field Office’s prime contractor - following the
decision to invest significant ARRA funding to accelerate the permanent disposition of
legacy TRU waste throughout the complex as part of the effort to dramatically reduce the
footprint of the EM program.

Background:

The IG conducted an audit at Hanford to determine whether the Department had
implemented its plan to accelerate CH-TRU Waste at Hanford by sending the waste to
the Idaho AMWTP for compaction before final disposal at the Waste Isolation Pilot Plant
(WIPP). The IG also evaluated whether the Department was effectively using American
Recovery and Reinvestment Act funds to accomplish this acceleration.

As a result of the audit, the IG specifically recommended that my office determine the
amount of Hanford CH-TRU waste that is suitable for processing at the AMWTP and
ultimate disposal at WIPP. In addition, the IG suggested that EM fully analyze the cost
implications of processing Hanford’s CH-TRU waste on-site as opposed to processing it
at the AMWTP. EM’s planned actions to respond to these recommendations are detailed
in the attached comments.

Attachment
 
cc:
Cynthia Anderson, EM-3.1
Joni Boone, EM-4.1
Audit Liaison, CF-1.2
David Brockman, RL
David Langstaff, RL
                                                                                  Attachment 4



                                      PRIOR REPORTS

Office of Inspector General Reports

      Disposal of Remote-Handled Transuranic Waste at the Waste Isolation Pilot Plant
      (DOE/IG-0613, July 2003). The audit concluded that opportunities existed for the
      Department of Energy (Department) to improve the efficiency of its remote-handled
      transuranic (TRU) waste disposal program. Additionally, the report also noted that
      existing strategic performance goals and measures for use in managing the program could
      be enhanced. By maintaining a careful focus on full integration and coordination of the
      treatment, transportation, and disposal of remote-handled TRU waste across the complex,
      the Department can increase the likelihood that its accelerated cleanup goals will be
      achieved. The report recommended that the Office of Environmental Management
      maximize opportunities to fully integrate and coordinate the treatment, storage,
      transportation, and disposal of remote-handled TRU waste by conducting an analysis to
      determine the optimal mix of shipping container types for cost-effective, safe, and
      environmentally acceptable shipment of remote-handled TRU waste to the Department's
      Waste Isolation Pilot Plant.

      Transuranic Waste Retrieval and Processing at the Hanford Site (DOE/IG-0624, October
      2003). The audit concluded that the Department faced significant challenges in its efforts
      to retrieve and process TRU waste at the Hanford Site. Specifically, as of July 2003,
      none of the nearly 10,000 containers had been retrieved. Further, the report found the
      Department's milestones were in jeopardy because Richland Operations Office
      (Richland) had not placed sufficient emphasis on retrieving and processing projects.
      Specifically, Richland had not established an achievable TRU waste retrieval plan.
      Additionally, the Department had not performed a comprehensive study to determine
      obtainable retrieval rates and optimal processing levels needed to meet, at minimal cost,
      regulatory milestones and cleanup goals.




                                              13
                                                                 IG Report No. OAS-RA-10-10

                       CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Felicia Jones at (202) 253-2162.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                       http://www.ig.energy.gov

      Your comments would be appreciated and can be provided on the Customer Response Form.
